0R1G1NA!

2©°828

No. ________________

FILED
JUN 0 4 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

IN THE

\

SUPREME COURT OF THE UNITED STATES

ANTHONY HERMAN LUCIO

— PETITIONER

(Your-Name)___
vs.
UNITED STATES

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FIFTH CIRCUIT COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ANTHONY HERMAN LUCIO #58474-177

(Your Name)
FCI TALLADEGA-P.0.

BOX 1000

(Address)
TALLADEGA, ALABAMA 35160
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

WAS PRESENTENCE REPORT'S CALCULATIONS ON QUANTITY O'F DRUGS UNDER
U.S. SENTENCING GUIDELINES MANUAL § 2D1.1 ATTRIBUTED TO DEFENDANT
PROPER BASED ON FACTS BEING SUFFICIENTLY SUPPORTED BY FINDINGS.

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] ^’PaKleS.d"n0t appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment
is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW.....................

1

JURISDICTION............................
... 2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
3

STATEMENT OF THE CASE...................
.. 4

REASONS FOR GRANTING THE WRIT...,
10

CONCLUSION............

16

INDEX TO APPENDICES
APPENDIX A - ODinion of the Fifth Circuit
Court of ApDeals
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

a

[x] reported at mu Si iw.:'Lwo.^o:. 203,1, uls.c-Rpp. lexis 1096 ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ j has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ xl For cases from federal courts:
The date on which the United States Court of Appeals decided my case

Was January 1 4. 2021

M No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______________ (date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

r
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Amendment V.
No person shall be

.. deprived of life,

liberty, or property,

without due process of law.

■

3

STATEMENT OF THE CASE
I. INVESTIGATION OF OFFENSE
On an unknown date in December 2018

a Fort Worth, Texas, Polices

Department (FWPD) confidential source (CS) provided information regarding
the drug distribution activities of Anthony Herman Lucio and indicated
he/she could introduce an undercover officer to Lucio.

On December 11,

2018, an undercover officer (UC) with FWPD initiated a series of phone calls <
and text messages with Lucio negotiating the purchase of methamphetamine
for $275* Later that day, the UC met with Lucio and purchased three
ounces of methamphetamine for $275 per ounce, totaling $825. The methamphet W V
amine involved in this- transaction was forwarded to the South Central
Laboratory in Dallas, Texas. It was determined to be d-methamphetamine
'’Ice" with a net weight of 83.3 grams and purity level of 93 percent.
On December 14,

2018, surveillance was initiated at 3716 Oscar Avenue

in Fort Worth, Texas where Lucio lived.
On February 26,

2019» under.'the guidance and direction of FWPD

officers, the CS purchased an additional three ounces of methamphetamine
for $200 per ounce, totaling $600. During their meeting,

the CS inquired

with Lucio regarding the purchase of one kilogram of methamphetamine
"Ice". Lucio advised the CS he would sell the CS one kilogram of
methamphetamine "Ice" for $6,500. The methamphetamine involved in this
transaction was forwarded to the South Central Laboratory in Dallas,
Texas, for analysis. It was determined to be d-methamphetamine "Ice" with
a net weight of 83.53 grams and a' purity level of 99 percent.
On February 28, 2019» surveillance captured Murrell Wilson,.the

4

uncle of Lucio's common-law-wlfe, Shelly Norrell, leaving Lucio's residence.
Shortly therafter, a traffic stop was conducted, and Wilson was arrested
for a traffic offense. After his arrest, Wilson was permitted to conatct
Norrell to retrieve his vehicle. Norrell and Lucio arrived at the scene,
and Lucio was arrested for an active felbny warrant. Norrell was detained
pending further investigation. After Lucio's arrest, surveillance
captured Ramiro Cantu leaving Lucio's residence. A traffic stop was
conducted, and he was taken into custody for active warrants. Officers
recovered $1,800 from Cantu.
During debriefing, Norrell advised officers three children were
at the residence, ranging in age from four to nine years old. After
determining no other adult occupants were at the residence,

a search

warrant was executed. The following drugs were seized from the residence:
619 grams of methamphetamine,

1.27 kilograms of cocaine,

57.66 ounces

of marijuana, three firearms, ammunition, a digital scale, and $13,568
were recovered from the bedroom sharded by Lucio and Norrell.

An additional

firearm was recovered from Wilson's bedroom, $3,000 was recovered from the
kitchen, and 22 ounces of marijuana was recovered from a silver Hyundai
Accent.
The methamphetamine and cocaine recovered from the bedroom of
Lucio and Norrell was forwarded to the South Central Laboratory in
Dallas, Texas, for analysis.' While the laboratory confirmed the cocaine,
results pertaining to the methamphetamine remained pending as of the
disclosure of the Presentence Report. As such, the PSR classified the
methamphetamine recovered from the residence as methamphetamine instead
of methamphetamine "Ice".
In a post-arrest statement, Wilson estimated he resided with Lucio

5

and Norell at 3716 Oscar Avenue for one year. He confirmed be was aware
of Lucio's drug-traffieking activities and indicated be delivered
narcotics on Lucio's bebalf under Lucio's direction. Specifically, Wilson
reported Lucio instructed bim to deliver metbampbetamine,

cocaine, or

marijuana throughout the Fort Worth area. Wilson advised be did not
receive any money for the deliveries but indicated Lucio did not require
bim to pay rent for living at bis residence. In addition, Wilson recalled
delivering two to three ounces of metbampbetamine to an unidentified male
on one occasion,

and be and Lucio obtained two to three pounds of

metbampbetamine approximately one month prior to their arrests for the
instyant offense. He also advised be bad been present on five otberr
occasions when metbampbetamine "Ice" was delivered at each transaction,
and 1 kilogram of metbampbetamine "Ice" was delivered during another
transaction. Wilson further indicated Lucio stored approximately 48 kilograms
of metbampbetamine "Ice" in a storage shed at 804 Glen Garden Drive in
Fort Worth, the residence of bis brother-in-law, Josue Terran approximately
one month earlier, along with firearms and body armor.
Based onntbe information provided by Wilson and pursuant to a
search earrant, on May 29,

2019, DEA TFO Castaneda conducted a search of

Lucio's cellular telephone. Between February 25, 2019, and February 27,
2019, Lucio and an unidentified person (UP), utilizing the cellular
telephone number 21 3-318-1703,

exchanged a series of text messages regarding;*-

the negotiation of a metbampbetamine transaction. Specifically, they
discussed arrangements for Lucio to purchase 24 to 25 kilograms of
metbampbetamine. On February 25,

2019, the UP confirmed be bad 24 to 25

kilograms of metbampbetamine and asked Lucio if be bad money available
to complete the transaction. (FbeFtext messages were determined to be a

6

deal to purchase metbampbetamine by DEA TFO Castaneda, based on bis
interpretation of the messages.
I. CONVICTION AND SENTENCE
On March 1,

2019, a Criminal Complaint was filed in the Northern

District of Texas, Fort Worth Division. Pursuant to the Criminal Complaint,
the defendant,

Anthony Herman Lucio,

and his coconspirator, Murrell

Wilson, were arrested by DEA agents and Task Force Officers with the Fort
Worth, Texas, Police Department. Lucio waived his right to indictment,
and on May 22,

2019, he was named-din a one-count felony Information.

Count 1 charged him with conspiracy to possess with intent to distribute a
controlled substance,

in violation of 21 U.S.C.

§ 846 and 841(a)(1) &

(b)(1)(B). Specifically, beginning in or before December 2018 and
continuing until in and around February 2019, in the Fort Worth Division
of the Northern District of Texas, and elsewhere, Lucio knowingly and
intentionally combined, conspired, confederated, and agreed to possess
with intent to distribute methamphetamine.
On may 29, 2019, Lucio appeared before Magistrate Judge Hay, on
behalf of the Honor&blbeoTerry R. Means, Senior U.S. District Judge, for
arraignment at which time he pleaded guilty to the one Count felony
Information. Lucio made a open-plea^wi'tbbot Lb’enef i'ttof a plea agreement.
On June 13, 2019, Senior Judge Means issued an order accepting Lucio’s
plea of guilty and adjudged him guilty. The Court subsequently ordered
the preparation of the Presentence Report.
The PSR was prepared calculating a base offense level of 38 using
the drugnquantity table forra equivalent of 109,294.25 kilograms of

7

converted drug weight from the following:
* 83*33 grams of metbampbetamine "Ice" from the controlled buy
on December 11, 2018;
* 83.35 grams of metbampbetamine "Ice" from the controlled buy
on February 26, 2019;
* 619 grams of metbampbetamine seized from Lucio's residence
on February 28, 2019;
* 1.27 kilograms of cocaine seized from Lucio's residence
on February 28, 2019;
* 1,634.66 grams of marijuana seized from Lucio's residence
on February 28, 2019;
* 623.7 grams of marijuana seized from a vehicle at Lucio's
residence on February 28, 2019;
* 24 kilograms of metbampbetamine involved in the drug transaction
with an unknown person on February 27, 2019, and
* $18,368 in drug proceeds collected from Lucio's residence
and Cantu on February 28, 2019
The PSR assessed two points pursuant to U.S.S.G. § 2D1.1(b)(1)
for the four firearms recovered from the residence, two points pursuant
to U.S.S.G. §P2D1 .1(b ) ( 5 ) based on the metbampbetamine being supplied
from Mexico; and two points pursuant to U.S.S.G. § 3B1.1(a) based on
Lucio being a organizer, leader, manager, or supervisor in any criminal
activity. With a three point reduction for acceptance of responsibility
underoU.S.S.G.

§ 3E1.1(a)(& (b) the resulting total offense level was 41

and a criminal history of III.
The government concurred with the findings of the PSR. Counsel
William R. Biggs filed objections to therattributable drug quantity,
specifically the 24 kilos of metbampbetamine towards bis drug quantity
based ohntext messages found on Lucio's phone with an unidentified
individual, the conversion of $18,368 in cash proceeds to 2.83 kilograms

8

of Ice, the application of the two level importation from Mexico enhancemet,
and the application of an aggravating role adjustment. The government filed
its response citing Wilson's post-arrest and proffer statements as sub
substantiating the agent's interpretation of the text messages between
the defendant andothe alleged methamphetamine-source.

Counsel replied and

submitted a request for downward departure based on the guide1ineadrug
calculations of methamphetamine and methamphetamine "Ice".
On November 14, 2019, the Honorable Terry R. Means held sentencing.
The court made tentative findings overruling the objections of the
defendant for the reasons set out in the probation officer's addendum
to the presentence report and the government's response to the defendant's
objections. The Court did grant thfe defendant's motion for sentencing
variance. Counsel declined to present any evidence regarding the overruled
objections to the PSR. The Court adopted the PSR's final findings of the
statement of facts. The Court allowed Lucio and relatives to address the c
Court and ultimately imposed a variant sentence of 324 months.
Lucio filed a timely notice of appeal and was represented once
again by William R. Biggs. United States v. Lucio,
1096 (5th Cir. Jan.

2021 U.S. App. LEXIS

14, 2021). On appeal counsel raised the two challenges

regarding drug quantity calculations. The Fifth Circuit affirmed the
judgment holding that the claculations were proper because facts sufficiently
supported the findings as defendant was a meth dealer and agent who
J
reviewed text message applied his experience to interpret the exchange
in light of defendant's criminal history. No rehearing was sought
This timely writ of certiorari follows.

9

REASONS FOR GRANTING THE PETITION

WAS PRESENTENCE REPORT’S CALCULATIONS ON QUANTITY OF DRUGS
UNDER U.S. SENTENCING GUIDELINES MANUAL § 2D1.1 ATTRIBUTED
TO DEFENDANT PROPER BASED ON FACTS BEING SUFFICIENTLY
SUPPORTED BY FINDINGS?

Appellant pleaded gulity, without plea agreement, to conspiring
to possess with intent to distibute more than'50 grams of methamphetamine ,
in violation of 21 U.S.C.

§ 846 and § 841(a)(1) 7

(b)(1)(b).

At sentencing the presentence report and other sentencing items
revealed the following, information. Lucio sold three ounces of
amphetamine on two occasions to law enforcement,

me th -

in December 2018 and

February 2019. The ese quantities were later tested and found to be
83-33 and 83-35 grams of ICE. On the second transaction, the confidential
source (CS) inquired how much it would be to purchase 1 kilogram of methamphetamine ICE. Lucio advised that the fee would be $6,500.
On February 28, 2019> Lucio was arrested. Officers serached his
residence and found:

1) 1.27 kg of cocaine: 2) 619 grams of methamphet-

amine: 3) 57.66 oz. of marijuana: 4) firearms: and 5) &16.568 in cash.
Law enforcement, also arrested two other individuals, Ramiro
Cantu and Murrell Wilson. Cantu was seen on surveillance leaving' Lucio1 s
residence. He was arrested following, a traffic stop and had $1,800 in
his possession. Wilson, Lucio’s uncle in law, lived at the residence
and participated in drug trafficking. Upon his arrest, he debriefed
with the government and claimed Lucio possessed and received large
quantities of methamphetamine .
Law enforcement searched Lucio’s phone. On the phone,

it found a

cryptic text conversation in Spanish between Lucio and an unknow person.
10

Agents surmised that the conversation pertained to a drug transaction.
However, neither the particular drug nor unit of measurement of the
drug were revealed in the conversation.

At its most sopecific, the

exchanges were as follows:
Unknown: What time do I take you the food? Do you
have the paper because I want to give it to
that guy.
Lu cio :

How many of them are there?

Unknown: 24 or 25*

Based on this information, the agent and

(ultimately the probation

officer) concluded that Lucio was purchasing 24-25 kg of methamphetamine .
The district court erred when calculating the drug quantity
attributable to Lucio under Section 2D1.1(c) of the Federal Sentencing
Guidelines .
First, it held Lucio accountable for 24 kg of methamphetamine based
on text messages between Lucio and an unknown individual. During this
conversation, the two discuss the delivvery of "24 or 25" of some unknown
object, but the particular object is never specified. Even if it could be
assumed the object were drugs, the message never reveal the type of drug
nor unit of measurement.
The conclusion that the substance had been methamphetamine was
wholly speculative: the eveidence showed that Appellant also distributed
cocaine and marijuana.

In fact, officers found twice as much cocaine

(1.27 kilograms) in his home as methamphetamine (619 grams). The assumed
unit of measurement was equally dubious in light of the know evidence.
Lucio had been selling only multi ounce quantities and less than a
kilogram of methamphetamine had been found at the residence the day after

11

the supposed 24kg transaction had taken place.
A coconspirator had claimed Lucio received 1 a rge. qu an t i t i e s of
methamphetamine, but the record demonstrates that the court did not find
those statements to be reliable.

It did not include those quantities in

the d ru g - qu an t i ty determination under USSG § 2D1.1(c).

And the court

downwardly varied for reasons that wouldn’t have existed had the court
actually relied upon the coconspirator's statements.
The district court also erred in converting all of the cash proceeds
recovered to ICE. Law enforcement seized over $18,00 in cash the day-of:.
Lucio's arrest. More than $16,00 was found in Lucio's home and the
remaining amount was seized from another conspirator who had recently
left Lucio's home. The court had no basis to conclude that the cash
found reflected cash proceeds from methamphetamine trafficking, where
sizeable quantities of cocaine and marijuana had also been found in the
home .
A. ARGUMENT
THE DISTRICT COURT ERRED.
The district;court's drug quantity determination was flawed in two
respects, first, the court erred when it attributed 24 kilograms of
methamphetamine to Lucio based on vague text messages with an unidentified
individual, wherein the two discuss effectuating the sale of "24 or 25"
of an unspecified itern with an unspecified unit of measurement. Even
assuming the messages do in fact provide evidence of a negotiated drug
sale, the messages do not reveal the type nor quantity of drugs involved.
United States v. Lee, 427 F.3d 881, 893 (5th Cir. 2005)("[a] sentencing
judge may not speculate about the existence of a fact that would permit
a more severe sentence").
12

The messages only discuss "24 or 25 of them” but what drug and what
unit of measurement remains unknown. The court bad no basis to conclude
that the discussed sale invloved metbaropbetaroine in particular. Law
enforcement found sizeable quantities of cocaine and marijuana in Lucio’s
borne tbe day after this mystery transaction took place.

In fact, officers

found twice as much cocaine in tbe residence (1.27 kilograms) as metbampbetamine (619 grams).
Tbe unit of measurement was equally mysterious. Lucio trafficked
in metbampbetaroine in quantities far lower than 24 to 25 kg. Tbe evidence
only showed that Lucio sol d .■ t o : 1 a w. en f ore emen t in tbree-ounce quantities
and that Lucio bad mentioned that be could obtain a single kilogram for
$6,500. both of these amounts roughly cohere with tbe 619 grams actually
found at Lucio's residence. But tbe 24kg figure absolutely dwarfs these
quantities. There was no reason to infer from this evidence that "24 or
25" represented kilogram quantities of a drug as opposed to grams, ounces ,
or pounds.

And of course, it could have been another drug all together,

if it were even a controlled substance at all.
It merits emphasis that this supposed 24-25 kg drug deal allegedly
took place on February 27,

2019, one day before law enforcement raided

Lucio's bouse. Conspicuously absent is any sign of tbe 24 kilograms of
methampbetamine be bad allegedly acquired. Tbe following day Lucio was
found with a far smaller quantity of methampbetamine.
In defense of tbe drug quantity, tbe government pointed to state­
ments from Murrell Wilson. Wilson bad claimed in a brief that be bad seen
Lucio receive large quantities of metbampbetaroine:
occasions,
occasion ,

2-3 kilograms on another occasion,

10 kilograms on four

1 kilogram on an additional

and that Lucio bad 48 kilograms stored in a storage shed at a

13

relative's address. The government argued in its objection and at sentencing
that Wilson's statements made Lucio variance argument irrelevant: because
Wilson attributed over 45 kg of mixture roetbampbetamine to Lucio, be would
be a level 38 regardless of the ICE attributed to him.
Critically, however, the record shows that the district court did
not find those statements to be sufficiently reliable. First,

the court .

did not include any of the quantities Wilson discussed in the drug quantity
determination. Second,

the court chose to vary notwithstanding the govern­

ment's argument that Wilson's proffer mooted any variance argument.
If the court had found Wilson's statements reliable, the government would
have been correct that there would have been no basis for a variance based
on differential purity. The court's purity-based variance again demonst­
rated that it had rejected Wilson's proffer on drug quantity.
For similar reasons, the district court also erred in concluding
that all of the cash seized at the residence and found on Castro should
be converted to ICE. Here again,

the search of Lucio's home revealed 1.27

kilograms of cocaine, roughly twice the quantity of metharophetamine located.
The search also revealed a large quantity of marijuana-more than 57 ounces
worth. With sugnificant quantities of cocaine and marijuana also found
at the home,

there was no basis to conclude that the seized cash reflected

methamphetamine proceeds at all, much less exclusively metbampbetamine
proceeds.
However, if the court had refused to apply 24 kilograms of metbam­
pbetamine

towards the drug quantity, the variance range would have been

significantly less. Treating all Ice as regular metbampbetamine and removing
the 24kg drug quantity,

the converted drug weight would have beeb 7,474.25

kilograms. This figure would have corresponded to a base offense level
ft14

of 32 instead of 36, and a hypothetical total offense level of 35 instead
of 39. Total offense level 35 and criminal history category III set
forth a sentencing range of 210-262 months.
There thus can be no doubt then that the error affected the sentence.
The bottom of this corrected variance range is a staggering 114 months
below the current sentence of 324 months. Even 262 months, the top of this
corrected hypothetical sentencing range,

is roughly five years less

than the current sentence.
The harm only increases if the Court finds that the district court
also erroneously converted all of the seized cash to methamphetaroine. By
conservative calculation (again treating Ice and methamphetaroine as the
same), had neither the phantom 24 kilogram. text transaction nor the
converted cash proceeds been counted as methamphetaroine,

the converted drug

weight would have been 1,827.61 kg. This quantity would have corresponded
to a base offense level of 30 and a total offense level of 33. U.S.S.G.
§ 2D1.1(c)(5). A total offense level of 33 and a criminal history category
of III would have yielded a variance of 168-210 months.
A comparable low-end sentence on this variance range would have
been a staggering 13 years below the current sentence. The sentence
effective1y wou1d be'cut in half. Even the high-end sentence of 210
months would represent a sentence nearly 10 years shorter than the current
sentence. See United States v. Johnson, 805 Fed.

Appx. 848

(5th Cir. 2020)

("has a due process right ... not to be sentenced based on false or
unreliable information").
In short, the Court has violated due process in failing to rely
on on reliable information in calculating Lucio’s sentence.

15

7

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

16

